No. 20-1114

 

IN THE

Supreme Court of the United States

THE AMERICAN HOSPITAL ASSOCIATION, et al.,

Petitioners,
v.

NorRIS COCHRAN, in his official capacity
as the Acting Secretary of Health and
Human Services, et al.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

BRIEF OF AMICI CURIAE YALE NEW HAVEN
HEALTH SYSTEM, BJC HEALTH CARE, UPMC
AND VANDERBILT UNIVERSITY MEDICAL
CENTER IN SUPPORT OF PETITION
FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,796 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 12, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
